        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy's
Geothermal Technologies Program
under the American Recovery and
Reinvestment Act




OAS-RA-11-05                        March 2011
                                  Department of Energy
                                     Washington, DC 20585
                                          March 22, 2011

MEMORANDUM FOR THE UNDER SECRETARY OF ENERGY

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's
                         Geothermal Technologies Program under the American Recovery and
                         Reinvestment Act"
BACKGROUND
Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's Geothermal Technologies Program received $400 million to promote the exploration
and development of new geothermal fields and innovative research into advanced geothermal
technologies. This funding represents an almost ten-fold increase over the $44 million originally
appropriated to the Geothermal Technologies Program for 2009. As of January 2011, the
Department had awarded $368 million in financial assistance agreements for 135 geothermal
technologies projects, with about $68 million having been expended.
Recovery Act funding supports geothermal projects undertaken by private industry, academic
institutions, tribal entities, local governments, and the Department's National Laboratories. The
projects, covering activities in 39 states, represent a significant expansion of the U.S. geothermal
industry and are intended to create or save thousands of jobs in drilling, exploration,
construction, and operation of geothermal power facilities and manufacturing of ground source
heat pump equipment.
We initiated this audit to determine whether the Department had effectively managed the
geothermal awards funded under the Recovery Act.
CONCLUSIONS AND OBSERVATIONS

In general, the Department followed established procedures for the solicitation, merit review,
selection and award of geothermal projects. However, we identified weaknesses in project
administration that need to be addressed to ensure that the government's interests are protected,
that financial assistance recipients fully comply with Federal requirements, and that the goals of
the Recovery Act are met. Specifically, our review of six major projects revealed that:

       Five of the six for-profit award recipients had been paid in excess of $110,000 for items
       that were either expressly unallowable under Federal regulations and award conditions or
       were questionable. Recipients claimed and had been reimbursed for unallowable costs
       such as alcohol, excessive travel, and entertainment expenses, as well as for duplicate
       payments, unauthorized pre-award expenses, and for other expenses that lacked sufficient
       supporting documentation; and,
   •   Five of the six award recipients had not required subcontractors to implement Davis-
       Bacon Act requirements to pay prevailing wage rates as mandated by the Recovery Act.
       Subcontract awards account for an estimated 90 percent of the $57 million in project
       costs for the 5 recipients.

The Department's approach to monitoring geothermal awards was not fully effective.
Specifically, it had not developed and implemented procedures for monitoring projects.
Additionally, it had not assigned adequate staff to monitoring activities and had not adequately
trained recipients on Federal rules regarding unallowable costs. Award recipients also indicated
that they were uncertain about how Davis-Bacon Act requirements could be applied to their
awards.

Payment of unallowable and questionable expenses reduces the amount of funds available for
mission objectives and represents waste and abuse of taxpayer dollars. Accordingly, we are
questioning $110,000 in award payments that need to be resolved by the Department's
contracting officer. These costs were identified from expenses totaling $7.6 million, of which
$4.3 million was reimbursed by the Department as of June 2010. As a result of our audit, one
recipient informed us that it reduced the December 2010 invoice to the Department by over
$43,000 for pre-award costs and overcharges noted in the example discussed previously.

While the overall amount of the inappropriate payments outlined in this report are relatively
small in relation to the total authorized for the Geothermal Technologies Program, they
demonstrate that safeguards designed to prevent or promptly detect unallowable costs were not
completely effective. Because our review was confined to a sample of active projects and with
almost $300 million remaining to be spent as a December 2010, it is essential that the
Department take immediate action to avoid similar problems in the future.

                       Costs Billed to and Reimbursed by the Department

Five of the six recipients included in our sample had erroneously claimed and been paid for a
total of about $110,000 for costs incurred under their awards. These recipients billed the
Department for alcohol, excessive travel expenses, and entertainment costs as well as for
unauthorized pre-award expenses. Further, we found duplicate payments and identified other
claims that lacked supporting documentation. For example:

   •   Two recipients had been reimbursed for alcohol, totaling $141. Alcohol is specifically
       prohibited by Federal Acquisition Regulation (FAR) Part 31.205-51, the provision
       applicable to these financial assistance awards.

   •   Four recipients had been reimbursed about $1,400 for travel expenses in excess of the
       limits prescribed by the Federal Travel Regulation, FAR Part 31.205-46. This amount
       resulted from numerous instances where recipients had been reimbursed for lodging
       expenses and meal allowances in excess of prescribed maximum amounts. Additionally,
       we found various other questionable expenses including unauthorized airline upgrades.




                                                   2
   •   One recipient over-billed the Department for $20,000 due to a typographical error on an
       invoice. Although this error was later identified by the recipient, we noted that neither
       the recipient's nor the Department's control systems had identified the error before the
       costs were reimbursed. The recipient indicated that the error would be corrected on the
       next invoice submission. The correction had not occurred, however, as of November
       2010, nearly 4 months after the Department had reimbursed the recipient.

   •   Without required Contracting Officer approval, a recipient had been reimbursed about
       $42,000 for costs incurred before the financial assistance agreement took effect.

   •   Another recipient had been reimbursed almost $43,000 in costs that had already been
       included in its indirect cost rate. This recipient had included expenses for depreciation
       and legal costs in its indirect cost rate and then billed these same expenses directly.

   •   One recipient had been reimbursed $1,100 for an overcharge by a subcontractor. In this
       instance, the recipient paid the subcontractor for an employee's overtime salary that
       should have been charged as regular time.

   •   Three recipients had been reimbursed $2,074 for costs without sufficient supporting
       detail, including an explanation of the business purpose for the expenditures. For
       example, one recipient had been reimbursed $667 in airfare with only a copy of a
       company credit card statement submitted as supporting documentation rather than an
       airline receipt and attestation of business purpose. In another case, a recipient was
       reimbursed over $500 for working lunches that were categorized as "business
       entertainment" without supporting documentation explaining the business purpose of the
       lunches.

                                 Wage Rates for Subcontractors

The Davis-Bacon Act was designed to ensure that laborers are compensated in accordance with
prevailing wage rates for the geographic area where they work. The Recovery Act extends the
requirement to adhere to the Davis-Bacon Act to include financial assistance agreements not
previously subjected to that law. It also requires the Department to make a determination
whether the Davis-Bacon Act provisions apply on a program basis. The Department determined
that the requirements of the Davis-Bacon Act applied to the Geothermal Technologies Program
and included special terms and conditions in each award to promulgate that Act. Under the Act,
recipients must ensure that they include Davis-Bacon Act terms and conditions in subcontracts
for the types of labor and other activities covered by the Act, maintain detailed subcontractor
payroll records, and conduct audits as necessary to ensure compliance with requirements.

Five of the six recipients in our sample had not included provisions to ensure that subcontractor
laborers were paid at the minimum prevailing wage rates as required by the Davis-Bacon Act.
The sixth recipient had not subcontracted any work at the time of our audit. While the
Department included provisions implementing the Davis-Bacon Act in its Geothermal
Technologies financial assistance awards, including requirements to flow-down Davis-Bacon



                                                    3
Act provisions to subcontractors, our audit of subcontracts made by the five recipients as of
August 2010, showed that none of the awards contained the Davis-Bacon Act requirements.

Recipient officials stated that they were uncertain as to how they would apply wage rates since,
in their view, Davis-Bacon Act labor categories did not specifically apply to geothermal well
drilling. However, we identified a number of subcontracts awarded by the recipients that
involved standard type construction activities such as fence construction and painting. We were
unable to determine the amount that any workers had been underpaid, since records had not been
maintained. In total, the six recipients we visited had planned to subcontract more than $57
million.

                                    Monitoring and Training

Insufficient monitoring of the awards and inadequate training of recipients on applicable Federal
requirements directly contributed to the improper reimbursements and failure to adhere to grant
terms. We noted that in some cases, the costs we identified were visible in the invoices
submitted to the Department by the recipients but were not questioned by project officers.
Similarly, at the time of our audit, the Geothermal Technologies Program had not developed
procedures for monitoring projects, including reviews for compliance with Davis-Bacon Act
provisions.

Geothermal Technologies Program staffing issues contributed to weaknesses in monitoring
recipients. Specifically, each project officer in the Geothermal Technologies Program is
responsible for monitoring at least 50 awards. To help mitigate the workload, the Branch Chief
had assumed responsibilities for monitoring about 20 awards. Although the Department had not
estimated resources needed for the Geothermal Technologies Program, a Department official
stated that 30 to 40 awards per Project Officer would be more reasonable, given the make-up and
attributes of individual projects in the Geothermal Technologies Program. According to
officials, there are no plans to hire additional staff to manage the Geothermal Technologies
Program.

We have previously reported on the impact of insufficient staffing on the oversight of financial
assistance awards. In our audit Selected Energy Efficiency and Renewable Energy Projects
(DOE/IG-0689, May 2005), we concluded that project officers could not effectively oversee 50
awards each and found that responsibility for such a high number of awards led to problems
similar to those we identified during this audit.

Given staffing limitations, Geothermal Technologies Program officials informed us that their
primary objective was to complete the awarding of the geothermal financial assistance
agreements and that they would later focus their attention on certain monitoring activities.
Geothermal Technologies Program officials told us that cost reviews would be conducted by
independent auditors at a later time, and that they intended to train project officers in Davis-
Bacon Act compliance. Additionally, the Department developed a guide for the implementation
of Davis-Bacon Act requirements and distributed it to recipients in November 2010. However,
the Department did not have a schedule of cost audits to show how many recipients will be
audited. Also, Geothermal Technologies Program officials told us that Davis-Bacon Act



                                                    4
compliance reviews will only occur at recipients selected for site visits. According to our
discussions with project officers, site visits will not occur until after drilling rigs are in place and
operational. In these instances, subcontracts may have already been put into place and it may be
too late to ensure Davis-Bacon Act requirements are included in subcontracts. Department
officials stated that not all recipients would receive an on-site monitoring visit.

Finally, recipients, many of whom were new to receiving Federal financial assistance awards,
told us that they were uncertain of Federal rules governing allowable costs and Davis-Bacon Act
requirements. Although the recipients lacked prior experience with Federal financial assistance
awards, the Department had not provided training on allowable costs and wage rate compliance
requirements to them.

RECOMMENDATIONS

The Department is at risk of not meeting the goals and objectives of the Recovery Act for its
Geothermal Technologies Program. Specifically, costs totaling nearly $110,000 have been
reimbursed by the Department – costs that, in our opinion, likely represent waste and abuse of
taxpayer dollars. Further, prevailing wage rates were not required for subcontractors even
though they were a key requirement of the Recovery Act. Given the sizable sum that remains to
be spent on the Geothermal Technologies Program, the Department has an opportunity to rectify
these situations and ensure a successful path forward.

To help achieve the objectives of the Recovery Act, as they relate to the Geothermal
Technologies Program, we recommend the Acting Deputy Assistant Secretary for Renewable
Energy direct responsible officials to:

    1. Review resource allocations and adjust Federal project manager-to-financial assistance
       award ratios as necessary to ensure that projects are adequately monitored;

    2. Develop formal procedures for project officer review of projects including compliance
       with Davis-Bacon Act provisions;

    3. Provide training to recipients as necessary to ensure compliance with Federal award
       requirements in areas such as Federal cost standards and David-Bacon Act compliance
       for wage rates; and,

    4. Require awardees to amend subcontracts to include compliance with Davis-Bacon Act
       requirements where applicable.

Additionally, we recommend that the Contracting Officer for the Geothermal Technologies
Program financial assistance awards:

    5. Determine whether the $110,000 in questioned costs identified in this report are
       allowable.




                                                       5
MANAGEMENT'S RESPONSE

The Department concurred with the findings and recommendations contained in our audit.
Specifically, management stated that it had either completed or had ongoing actions to: (1)
adjust resource allocations for project monitoring; (2) develop procedures to review compliance
with Davis-Bacon Act requirements; (3) provide recipient training on laws and regulations
applicable to awards, including Davis-Bacon Act requirements; and, (4) monitor recipient flow-
down of requirements in subcontracts and direct compliance when required. Further, the
Department reported that it had already recovered 97 percent of the costs we questioned.
Finally, management pointed out that our review occurred early in the project period and that
future unallowable costs would be identified during annual incurred cost reconciliations.
Management also stated that it had requested post-award audits of Recovery Act-funded projects.

Management's actions are responsive to our recommendations.

Management's comments are included in their entirety in Attachment 3.

Attachments

cc:   Deputy Secretary
      Acting Under Secretary of Energy
      Associate Deputy Secretary
      Chief of Staff




                                                  6
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
had effectively managed the awards funded under the American Recovery and Reinvestment Act
of 2009 (Recovery Act).

SCOPE

This audit was performed between June 2010 and January 2011, at the Department Headquarters
in Washington, DC, and the Golden Field Office in Golden, Colorado. In addition, we visited
six financial assistance recipients. Due to other ongoing audits being conducted by an
independent accounting firm, we did not review accounting controls at the recipients we visited.

METHODOLOGY

To accomplish the objective, we:

     •   Obtained and reviewed relevant laws and regulations related to implementation of the
         Recovery Act and financial assistance awards administration;

     •   Reviewed programmatic and planning documents such as the Funding Opportunity
         Announcement and Project Operating Plans;

     •   Reviewed and evaluated procedures, results reports, and other documents related to the
         merit review of applications and selection of recipients;

     •   Obtained access to the Department's Strategic Integrated Procurement Enterprise
         System and reviewed individual award files for a sample of geothermal financial
         assistance agreements;

     •   Reviewed subcontracts for inclusion of Davis-Bacon Act wage requirements as
         prescribed by the Recovery Act;

     •   Interviewed Project Officers, Contract Specialists, and the Contracting Officer for
         sampled financial assistance awards made under the Geothermal Technologies
         Program; and,

     •   Conducted site visits to six geothermal financial assistance recipients to observe
         implementation of work, interview officials, and analyze financial transactions and
         implementation of financial assistance requirements as prescribed by the terms and
         conditions of the awards.




                                                7
                                                                         Attachment 1 (continued)

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our finding and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our finding and conclusions based on our audit objective. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our audit. We also assessed performance measures in accordance with the Government
Performance and Results Act of 1993 and determined that performance measures were
established for the Geothermal Technologies Program. We conducted an assessment of
computer processed data relevant to our audit objective and found it to be reliable.

Management waived an exit conference.




                                                 8
                                                                                   Attachment 2
                                 PRIOR AUDIT REPORTS


Office of Inspector General Reports

   •   Progress in Implementing the Advanced Batteries and Hybrid Components Program
       under the American Recovery and Reinvestment Act (OAS-RA- L-10-04, April 2010).
       This report revealed that the Department of Energy (Department) had made significant
       progress in implementing the Advanced Battery and Hybrid Components Program.
       During the audit, nothing was noted to indicate that the Department had not followed its
       predetermined award process and selection criteria. In addition, a comprehensive
       monitoring plan was implemented, and if successful, should reduce the financial,
       technical, and marketing risks associated with the projects.

   •   Selected Energy Efficiency and Renewable Energy Projects (DOE/IG-0689, May 2005).
       The report concluded that over half of the 20 cooperative agreements included in the
       review did not receive sufficient attention from management. For many of the
       agreements, required site visits were not performed. In addition, it was determined that
       administering up to 50 projects simultaneously is unreasonable.

General Accountability Office Reports

   •   Increasing the Public's Understanding of What Funds are Being Spent on and What
       Outcomes Are Expected (GAO-10-581, May 2010). This report found that an estimated
       33 percent of geothermal awards met the transparency criteria, 62 percent partially met
       the criteria, and 5 percent did not meet the criteria. The report focused on one aspect of
       transparency and accountability: the extent to which descriptions of awards found on
       Recovery.gov foster a basic understanding of award activities and expected outcomes.
       Although supplemental materials were available to assist with recipient reporting,
       recipients did not always follow the directions. Additionally, Geothermal Technologies
       Program officials did not review narrative description fields in Recovery.gov, which may
       have led to some reporting errors.




                                               9
                      Attachment 3
MANAGEMENT COMMENTS




        10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
                                                                 IG Report No. OAS-RA-11-05

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.




                                                    3
